                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMOFUNDUM

11
                                                                                     --   -




     Case Number: 1-03-09-0036                                                                Page 1 of 1



           Pursuant to receipt of a referral fiom the Office of Audit, this investigation was initiated to
           determine whether representatives of the University of California, Berkeley (UCB) intentionally
           submitted proposed budgets and claimed costs for Research Management related Services
           (RMS), knowing that the costs had been determined unallowable pursuant to a directive from the
           Department of Health and Human Services (HHS), the cognizant Federal agency.

          We reviewed the documentation associated with the audit, and then visited UCB and conducted
          investigative interviews of several UCB officials. The interviews disclosed no evidence that
          UCB officials fraudulently submitted proposed budgets and charges for RMS. UCB officials had
          appealed the HHS determination, believed their position was correct, and were optimistic that
          they would prevail. When the HHS, determination was affirmed, UCB reimbursed NSF
          $1,280,873 for RMS charges to NSF awards.

          In connection with this investigation and over the past two years, UCB has been developing a
          new policy regarding campus research support. Ultimately, UCB provided OIG with a copy of
          the University's new policy, "Report on Campus Research Support Policy", dated March 1,2005.
           UCB officials stated that the new policy and training of UCB personnel will insure RMS related
          charges are handled in a manner consistent with federal requirements.

          Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
